                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audit Services




Audit Report

The Resolution of Significant Finding
Investigation Recommendations (U)
This document is the unclassified memorandum attached to the classified
report.




DOE/IG-0804                                  November 2008
                               Department of Energy
                                    Washington, DC 20585
                                    November 18, 2008


MEMORANDUM FOR

FROM:                    'Greg
                           Inspector General

SUBJECT:                  INFORMATION: Follow-up Audit on "The Resolution of
                          Significant Finding Investigation Recommendations"

BACKGROUND

Maintaining and enhancing the safety, reliability and performance of the U.S. nuclear
weapons stockpile is vital to national security. The Nuclear Weapons Stockpile Plan.
issued annually by the President, directs the Department of Energy to ensure that the
Nation's nuclear weapons inventory continues to serve its essential deterrence role.
When an anomaly in the stockpile is identified which may affect its safety. security, or
reliability. the National Nuclear Security Administration (NNSA) requires that a
Significant Finding Investigation (SFI) be performed to identi6 causes and document
corrective actions to be taken. According to the U S . Department ofEnergl: NArSA
Development und Production Manual, NNSA is required to formally track the resolution
and closure of SF1 recommendations (corrective actions). These actions form the basis
for documenting the resolution of SF1 corrective actions.

The reliability of the U.S. nuclear stockpile has obvious national security implications.
For this reason, we initiated this audit to determine whether NNSA could account for the
resolution of corrective actions that resulted from SFI's. The current review is a follow-
up to a prior Office of Inspector General (OIG) audit report, Resolution qfsignificunt
Finding Investigation Recommendations (DOEIIG-0575, November 2002). The 2002
report disclosed that while NNSA could account for the resolution of many of the most
serious SF1 corrective actions related to problems affecting weapon safety, reliability, or
performance, the status of 2 number of additional corrective actions were not tracked. In
February 2003. in response to the prior report, hTNSA agreed to develop and implement a
corrective action tracking database by December 2003.

RESlJLTS OF AUDIT

hLNS.4 could not always fomal!:~ account for the resolution of corrective actions
recommended in SFIs. Specifically, we reviewed ajudgmental sample of 52 SFIs that
contained 130 actions recommended to correct nuclear weapons anomalies or
deficiencies and found that:

        Six corrective actions had not been performed; andS
        The status for two corrective actions could not be determined.




                                  a9   Printed wlth soy ~ n kon recycled paper
                                             2



From a statistical standpoint, our review identified only a relatively small number of
problems, as compared to the sample size. Yet, the statistics do not reflect the potential
impact of these anomalies, which could be significant. For example, NNSA had not
defined a path forward for one corrective action after the Life Extension Program for the
affected weapon system was cancelled in May 2006. Officials at the Sandia National
Laboratories and Lawrence Livermore National Laboratory told us that the corrective
action was determined to be a lower priority than other corrective actions needed for that
weapon system. We could not confirm this assertion since there was no documentation
either establishing or justifying the assignment of a low priority for correcting the
anomaly.

Regarding actions that were not performed, NNSA and cognizant officials at Sandia,
Lawrence Livermore, and Los Alamos National Laboratories were unable to provide
documentation to support their decisions not to perform the corrective actions. In
addition, as noted previously, these officials were unable to determine the status of two
corrective actions.

These concerns parallel the issues raised in our 2002 report. In response to the earlier
report, NNSA agreed to implement a tracking database and establish performance
measures to resolve corrective actions. However, NNSA had not effectively monitored
contractor efforts to develop and implement a database necessary to track the status of
SFI corrective actions. According to NNSA, the database was a low priority due to
declining budgets. NNSA believed that since each laboratory was tracking corrective
actions on its own, funding was better spent on testing/assessments of the identified
anomalies. However, we found that individual laboratory SFI databases did not always
contain information about whether a corrective action was implemented and/or the
reasons for not implementing the actions. Thus, the efficacy of the laboratory tracking
systems was in doubt.

Although they stated that the database had been a low priority, NNSA officials
acknowledged that an SFI corrective action database should have been completed and
functional. These officials also pointed out that corrective actions for high-risk areas
identified by SFIs were being addressed through the inter-agency Project Officers Group
and the Nuclear Weapons Council. These officials also stated that performance measures
for high priority corrective actions were incorporated in milestones established for
weapons life extensions, alterations and modifications. NNSA officials further stated that
the particular corrective actions discussed in this report were of a lower priority.
However, these officials, including weapons project officers, were unable to provide
documentation showing an established priority level for the corrective actions.

To put this matter in context, assessments to date have determined that the U.S. nuclear
stockpile is safe, secure and reliable. Nonetheless, NNSA should, in our judgment, take
all responsible precautions to confirm that all SFI corrective actions are resolved. The
resolution of SFI corrective actions is a vitally important performance goal, relating
                                             3

directly to maintaining stockpile confidence. Accordingly, we made recommendations
designed to improve NNSA's ability to ensure that corrective actions are resolved.

MANAGEMENT REACTION

Management agreed with the report and its corresponding recommendations.
Management assured the OIG that it is moving in a positive direction to implement the
recommendations. Management stated a major hurdle to deployment of the complex-
wide system was how to implement appropriate need-to-know access. Management also
stated that this issue was successfully resolved, and that the full database was deployed in
September 2008 and is now being used by all three weapons laboratories. Management
also stated that it has established milestones to identify the priority and status of
recommended corrective actions in the database, the status of which will be reviewed and
updated quarterly. Finally, Management stated that the production facilities will also
have access to the database by April 2009.

Management's actions are responsive to our recommendations.

Attachments

cc: Acting Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
